APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_________
No. 19-3010
_________
EZAKI GLICO KABUSHIKI KAISHA,
a Japanese Corporation d/b/a/ Ezaki Glico;
EZAKI GLICO USA CORP.,
a California Corporation,
Appellants,
v.
LOTTE INTERNATIONAL AMERICA CORP.;
LOTTE CONFECTIONARY CO. LTD.
_________
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 2:15-cv-05477)
District Judge: Honorable Madeline C. Arleo
_________
Argued: July 9, 2020
Before: McKEE, BIBAS, and FUENTES, Circuit
Judges
(Filed: January 26, 2021)
Amended: March 10, 2021
_________

2a
Jessica L. Ellsworth [ARGUED], Anna K. Shaw,
Neal K. Katyal, Benjamin A. Field, Hogan Lovells US,
555 Thirteenth Street, N.W., Columbia Square,
Washington, DC 20004, Steven M. Levitan, Hogan
Lovells US, 4085 Campbell Avenue, Menlo Park, CA
94025, Aaron S. Oakley, Hogan Lovells US, 1601
Wewatta Street, Denver, CO 80202, Katherine B.
Wellington, Hogan Lovells US, 125 High Street, Suite
2010, Boston, MA 02110, Roy H. Wepner, Lerner
David Littenberg Krumholz & Mentlik, 20 Commerce
Drive, Cranford, NJ 07016, Counsel for Appellants
John J. Dabney [ARGUED], Mary D. Hallerman,
Snell & Wilmer, 2001 K Street, N.W., Suite 425 North,
Washington, DC 20006, Counsel for Appellees
David H. Bernstein, Debevoise & Plimpton, 919
Third Avenue, New York, NY 10022, Bruce R. Ewing,
Dorsey & Whitney, 51 West 52nd Street, New York,
NY 10019, Jonathan E. Moskin, Foley & Lardner, 90
Park Avenue, New York, NY 10016, Claudia E. Ray,
Kirkland & Ellis, 601 Lexington Avenue, New York,
NY 10022, Counsel for Amicus Curiae in support of
Appellants International Trademark Association, on
Petition for Rehearing
Theodore H. Davis, Jr., Kilpatrick Townsend, 1100
Peachtree Street, Suite 2800, Atlanta, GA 30309, Sara
K. Stadler, Kilpatrick Townsend, 1114 Avenue of the
Americas, The Grace Building, 21st Floor, New York,
NY 10036, Counsel for Amicus Curiae in support of
Appellants National Confectioners Association, on
Petition for Rehearing
Adam H. Charnes, Kilpatrick Townsend, 2001 Ross
Avenue, Suite 4400, Dallas, TX 75201, Charles H.

3a
Hooker, III, Kilpatrick Townsend, 1100 Peachtree
Street, Suite 2800, Atlanta, GA 30309, J. David
Mayberry, Rita M. Weeks, Kilpatrick Townsend, 1114
Avenue of the Americas, The Grace Building, 21st
Floor, New York, NY 10036, Counsel for Amicus
Curiae in support of Appellants Mondelez Global
LLC, on Petition for Rehearing
_________
OPINION OF THE COURT
_________
BIBAS, Circuit Judge.
This is a tale of more than just desserts. Decades
ago, Ezaki Glico invented Pocky, a chocolate-covered
cookie stick. Pocky was very popular. And its success
drew imitators, including Lotte’s Pepero. Ezaki Glico
now sues Lotte for trade-dress infringement.
The District Court granted Lotte summary
judgment, finding that because Pocky’s design is
functional, Ezaki Glico has no trade-dress protection.
We agree. Trade dress is limited to designs that
identify a product’s source. It does not safeguard
designs that are functional—that is, useful. Patent
law protects useful inventions, but trademark law
does not. We will thus affirm.
I. BACKGROUND
A. A cookie is born: Ezaki Glico’s Pocky
Ezaki Glico is a Japanese confectionery company.
For more than half a century, it has made and sold
Pocky: a product line of thin, stick-shaped cookies
(what the British call biscuits). These cookies are

4a
partly coated with chocolate or a flavored cream; some
have crushed almonds too. The end of each is left
partly uncoated to serve as a handle. Ezaki Glico
makes Pocky in both a standard and an “Ultra Slim”
size. Appellant’s Br. 9.
In 1978, Ezaki Glico started selling Pocky in the
United States through its wholly owned subsidiary
here. Since then, it has tried to fend off competitors by
registering U.S. trademarks and patents. It has two
Pocky product configurations registered as trade
dresses.
Ezaki Glico also has a utility patent for a “Stick
Shaped Snack and Method for Producing the Same.”
App. 1013–16. The first thirteen claims in the patent
describe methods for making a stick-shaped snack.
The final claim covers “[a] stick-shaped snack made
by the method of claim 1.” App. 1016. The width of
that stick-shaped snack matches that of Pocky Ultra
Slim.
B.

A new cookie comes to town: Lotte’s
Pepero

Imitation is the sincerest form of flattery, and others
have noted Pocky’s appeal. Starting in 1983, another
confectionery company called Lotte started making
Pepero. These snacks are also stick-shaped cookies
(biscuits) partly coated in chocolate or a flavored
cram, and some have crushed almonds too. It looks
remarkably like pocky. Here are the two products side
by side:

5a

See App. 980–83, 1018–19, 1021–24. Lotte and its U.S.
subsidiary have been selling Pepero in the United
States for more than three decades.
C.

Ezaki Glico’s trade-dress suit

From 1993 to 1995, Ezaki Glico sent letters to Lotte,
notifying Lotte of its registered trade dress and asking
it to cease and desist selling Pepero in the United
States. Lotte assured Ezaki Glico that it would stop
until they resolved their dispute. But Lotte resumed
selling Pepero. For the next two decades, Ezaki Glico
took no further action.
In 2015, Ezaki Glico sued Lotte in federal court for
selling Pepero. Under federal law, Ezaki Glico alleged
trademark infringement and unfair competition, in
violation of the Lanham (Trademark) Act §§ 32 and
43(a), 15 U.S.C. §§ 1114, 1125(a)(1)(A). Under New

6a
Jersey law, it alleged trademark infringement and
unfair competition, in violation of both the common
law and the New Jersey Fair Trade Act, N.J.S.A.
§ 56:4-1 and 2.
After discovery, the District Court granted summary
judgment for Lotte, holding that because Pocky’s
product configuration is functional, it is not protected
as trade dress. Kaisha v. Lotte Int’l Am. Corp., No. 155477, 2019 WL 8405592, at *3 (D.N.J. July 31, 2019).
Ezaki Glico now appeals. The District Court had
jurisdiction under 15 U.S.C. §§ 1119 and 1121(a) and
28 U.S.C. §§ 1331, 1338, and 1367. We have
jurisdiction under 28 U.S.C. § 1291.
We review the District Court’s grant of summary
judgment de novo. Cranbury Brick Yard, LLC v.
United States, 943 F.3d 701, 708 (3d Cir. 2019). We
will affirm if no material fact is genuinely disputed
and if, viewing the facts most favorably to Ezaki Glico,
Lotte merits judgment as a matter of law. Fed. R. Civ.
P. 56(a). Both of Ezaki Glico’s Lanham Act claims
depend on the validity of its trade dress. New Jersey’s
unfair-competition and trademark laws are not
significantly different from federal law, so our
analysis of Ezaki Glico’s Lanham Act claims applies
equally to dispose of its state-law claims. See Am.
Greetings Corp. v. Dan-Dee Imports, Inc., 807 F.2d
1136, 1141 (3d Cir. 1986); 3 J. Thomas McCarthy,
McCarthy on Trademarks and Unfair Competition
§ 22:1.50 (5th ed. 2020). Following the parties’ lead,
we focus on federal trademark law.

7a
II. TRADE-DRESS LAW DOES NOT PROTECT
PRODUCT DESIGNS THAT ARE USEFUL
Under the statute, the key issue is whether Pocky’s
trade dress is functional. Lotte says that it is; Ezaki
Glico says no. Ezaki Glico equates “functional” with
“essential.” Appellants’ Br. 18, 25 (emphases omitted).
But that test is too narrow. It misreads the Lanham
Act’s text and its relationship with the Patent Act.
Under both the statute and the case law, a feature’s
particular design is functional if it is useful. And there
are several ways to show functionality.
A.

Patent law protects useful designs, while
trademark law does not

Copying is usually legal. It is part of market
competition. As a rule, unless a patent, copyright, or
the like protects an item, competitors are free to copy
it. TrafFix Devices, Inc. v. Mktg. Displays, Inc., 532
U.S. 23, 29, 121 S.Ct. 1255, 149 L.Ed.2d 164 (2001).
The Constitution does authorize Congress to grant
exclusive patents and copyrights “[t]o promote the
Progress of Science and useful Arts,” but only “for
limited Times.” U.S. Const. art. I, § 8, cl. 8. Utility
patents promote “Science and useful Arts” by
protecting inventions that are “new and useful.” 35
U.S.C. § 101. Design patents protect “any new,
original and ornamental design.” Id. § 171(a). In
keeping with the Constitution’s time limit, utility
patents last for twenty years, and design patents last
for only fifteen years. Id. §§ 154(a)(2), 173. If there is
no patent, or once a patent expires, competitors are
free to copy “publicly known design and utilitarian
ideas.” Bonito Boats, Inc. v. Thunder Craft Boats, Inc.,

8a
489 U.S. 141, 152, 109 S.Ct. 971, 103 L.Ed.2d 118
(1989); accord Qualitex Co. v. Jacobson Prod. Co., Inc.,
514 U.S. 159, 164, 115 S.Ct. 1300, 131 L.Ed.2d 248
(1995). This way, sellers can compete and build on one
another’s innovations. That competition improves
quality and lowers consumers’ costs.
By contrast, trademark law protects not inventions
or designs per se, but branding. A trademark is a
“word, name, symbol, or device . . . used by a person[ ]
. . . to identify and distinguish his or her goods . . .
from those manufactured or sold by others and to
indicate the source of the goods.” 15 U.S.C. § 1127.
Trademark law can protect a product’s “trade dress[,]
[which] is the overall look of a product or business.”
Fair Wind Sailing, Inc. v. Dempster, 764 F.3d 303, 308
(3d Cir. 2014). That includes not only a product’s
packaging but also its design, such as its size, shape,
and color. Id.; Wal-Mart Stores, Inc. v. Samara Bros.,
529 U.S. 205, 209, 120 S.Ct. 1339, 146 L.Ed.2d 182
(2000).
We are careful to keep trademark law in its lane.
Trade dress, like trademark law generally, is limited
to protecting the owner’s goodwill and preventing
consumers from being confused about the source of a
product. Shire US Inc. v. Barr Labs., Inc., 329 F.3d
348, 353 (3d Cir. 2003). We must not overextend it to
protect all of a product’s features, because “product
design almost invariably serves purposes other than
source identification.” TrafFix, 532 U.S. at 29, 121
S.Ct. 1255 (quoting Wal-Mart, 529 U.S. at 213, 120
S.Ct. 1339). “Trade dress protection . . . is not intended
to create patent-like rights in innovative aspects of
product design.” Shire, 329 F.3d at 353. If it did, it
could override restrictions on what is patentable and

9a
for how long. Qualitex, 514 U.S. at 164–65, 115 S.Ct.
1300. After all, trademarks have no time limit.
The functionality doctrine keeps trademarks from
usurping the place of patents. The Patent and
Trademark Office cannot register any mark that
“comprises any matter that, as a whole, is functional.”
15 U.S.C. § 1052(e)(5). Even after a mark is
registered, it is a defense to infringement “[t]hat the
mark is functional.” Id. § 1115(b)(8); see also id.
§ 1125(a)(3) (providing that the holder of an
unregistered mark must prove that the mark “is not
functional”). Thus, even if copying would confuse
consumers about a product’s source, competitors may
copy unpatented functional designs.
B.

Functional designs need not be essential,
just useful

The core dispute here is how to define “functional.”
Ezaki Glico reads it narrowly, equating it with
“essential.” Appellant’s Br. 18, 25. But that is not
what the word means.
Since the Lanham Act does not define functionality,
we start with its ordinary meaning. A feature’s design
is functional if it is “designed or developed chiefly from
the point of view of use: UTILITARIAN.” Functional (def.
2a), Webster’s Third New International Dictionary
(1966). So something is functional as long as it is
“practical, utilitarian”—in a word, useful. Functional
(def. 2d), Oxford English Dictionary (2d ed. 1989). The
word requires nothing more.
Reading functionality as usefulness explains how
the Lanham Act fits with the Patent Act. Utility
patents, not trademarks, protect inventions or designs

10a
that are “new and useful.” 35 U.S.C. § 101. If the
Lanham Act protected designs that were useful but
not essential, as Ezaki Glico claims, it would invade
the Patent Act’s domain. Because the Lanham Act
excludes useful designs, the two statutes rule
different realms.
Precedent also supports defining functional as
useful. In Qualitex, the Supreme Court described the
functionality doctrine as protecting competition by
keeping a producer from perpetually “control[ling] a
useful product feature.” 514 U.S. at 164, 115 S.Ct.
1300. In TrafFix, the Court described functionality as
depending on whether “the feature in question is
shown as a useful part of the invention.” 532 U.S. at
34, 121 S.Ct. 1255. It contrasted functional features
disclosed in a utility patent with “arbitrary,
incidental, or ornamental aspects” that “do not serve
a purpose within the terms of the utility patent.” Id.
And in Wal-Mart, the Court contrasted designs that
only “identify the source” with those that “render the
product itself more useful or more appealing.” 529
U.S. at 213, 120 S.Ct. 1339. “[M]ore useful or more
appealing” is a far cry from essential.
Conversely, a design is not functional if all it does is
identify its maker. “Proof of nonfunctionality
generally requires a showing that the element of the
product serves no purpose other than identification.”
Keene Corp. v. Paraflex Indus., Inc., 653 F.2d 822, 826
(3d Cir. 1981) (quoting SK&F, Co. v. Premo Pharm.
Labs., Inc., 625 F.2d 1055, 1063 (3d Cir. 1980)). But if
a design gives a product an edge in usefulness, then it
is functional.

11a
Ezaki Glico resists this reading by focusing on one
phrase from Qualitex. The heart of its claim is the first
sentence of its argument: “A product’s configuration is
functional for purposes of trade dress protection only
‘if it is essential to the use or purpose of the article or
if it affects the cost or quality of the article.’ ”
Appellants’ Br. 22 (quoting Qualitex, 514 U.S. at 165,
115 S.Ct. 1300, and adding the emphasis). But the
word “only” is nowhere on the page it cites. Though
Ezaki Glico’s forceful brief repeats “essential” more
than four dozen times and structures its case around
that touchstone, the authority does not support its
drumbeat.
On the contrary, the Supreme Court recognizes
several ways to show that a product feature is
functional. One way is indeed to show that a feature
“is essential to the use or purpose of the article.”
Qualitex, 514 U.S. at 165, 115 S.Ct. 1300 (quoting
Inwood Labs., Inc. v. Ives Labs., Inc., 456 U.S. 844,
850 n.10, 102 S.Ct. 2182, 72 L.Ed.2d 606 (1982)).
Another is if “it affects the cost or quality of the
article.” Id. (Ezaki Glico keeps skipping over this part
of the test.) At least in some cases, a feature is
functional and unprotected if the “exclusive use of [the
feature] would put competitors at a significant nonreputation-related disadvantage.” TrafFix, 532 U.S.
at 32, 121 S.Ct. 1255 (quoting Qualitex, 514 U.S. at
165, 115 S.Ct. 1300). All of these are different ways of
showing usefulness. (Though this last inquiry is
especially apt for proving aesthetic functionality, the
Court has not specifically limited it to that context.
See TrafFix, 532 U.S. at 33, 121 S.Ct. 1255.) On the
other hand, a feature is “not functional” if, for
instance, “it is merely an ornamental, incidental, or

12a
arbitrary aspect of the device.” Id. at 30, 121 S.Ct.
1255.
We analyze functionality not at the level of the
entire product or type of feature, but at the level of the
particular design chosen for feature(s). Just “because
an article is useful for some purpose,” it does not
follow that “all design features of that article must be
‘functional.’ ” 1 McCarthy § 7:70 (emphases added).
The question is not whether the product or feature is
useful, but whether “the particular shape and form”
chosen for that feature is. Id.
For instance, though ironing-board pads need “to
use some color . . . to avoid noticeable stains,” there is
no functional reason to use green-gold in particular.
Qualitex, 514 U.S. at 166, 115 S.Ct. 1300. Though
French press coffeemakers need some handle, there is
no functional reason to design the particular handle
in the shape of a “C.” Bodum USA, Inc. v. A Top New
Casting Inc., 927 F.3d 486, 492–93 (7th Cir. 2019)
(also noting that the design sacrificed ergonomics).
And though armchairs need some armrest, there is no
functional reason to design the particular armrest as
a trapezoid. Blumenthal Distrib., Inc. v. Herman
Miller, Inc., 963 F.3d 859, 867–68 (9th Cir. 2020) (also
noting that the design sacrificed comfort). Ironingboard colors, coffee-pot handles, and armrests are all
generally useful. But the particular designs chosen in
those cases offered no edge in usefulness.
Also, a combination of functional and non-functional
features can be protected as trade dress, so long as the
non-functional features help make the overall design
distinctive and identify its source. See Am. Greetings,
807 F.2d at 1143.

13a
But a product’s design, including its shape, is often
useful and thus functional. For example, when
Nabisco sued Kellogg for making its shredded wheat
pillow-shaped, just like Nabisco’s, the Supreme Court
rejected the unfair-competition claim. The pillow
shape is functional because using another shape
would increase shredded wheat’s cost and lower its
quality. Kellogg Co. v. Nat’l Biscuit Co., 305 U.S. 111,
122, 59 S.Ct. 109, 83 L.Ed. 73 (1938). For the same
reason, the Court rejected a challenge to copying the
exact shape of a pole lamp. Sears, Roebuck & Co. v.
Stiffel Co., 376 U.S. 225, 231–32, 84 S.Ct. 784,
11 L.Ed.2d 661 (1964). And if an inventor created a
new light-bulb shape that improved illumination, he
could not trademark that shape. Qualitex, 514 U.S. at
165, 115 S.Ct. 1300. That would be true even if
consumers associated the bulb shape with its
inventor, because trade-marking it would “frustrat[e]
competitors’ legitimate efforts to produce an
equivalent illumination-enhancing bulb.” Id. So long
as the design improves cost, quality, or the like, it
cannot be protected as trade dress. The shape need
only be useful, not essential. Conversely, a distinctive
logo, pattern, or other arbitrary shape or style may be
non-functional and protectable as a trade dress.
As the leading trademark treatise concurs,
“functional” means useful. “To boil it down to a
phrase: something is ‘functional’ if it works better in
this shape.” 1 McCarthy § 7:63. That includes features
that make a product cheaper or easier to make or use.
Id. Because the functionality bar is supposed to keep
“trade dress from creating ‘back-door patents,’ . . . . the
test of what is ‘functional’ should be very similar to
that of patent law.” Id. § 7:67.

14a
C.

Evidence of functionality

There are several ways to prove functionality. First,
evidence can directly show that a feature or design
makes a product work better. See Am. Greetings, 807
F.2d at 1142 (treating as functional “tummy graphics”
on teddy bears because they signal each bear’s
personality). Second, it is “strong evidence” of
functionality that a product’s marketer touts a
feature’s usefulness. Id at 1142–43. Third, “[a] utility
patent is strong evidence that the features therein
claimed are functional.” TrafFix, 532 U.S. at 29, 121
S.Ct. 1255. Fourth, if there are only a few ways to
design a product, the design is functional. Keene, 653
F.2d at 827. But the converse is not necessarily true:
the existence of other workable designs is relevant
evidence but not independently enough to make a
design non-functional. Id.; 1 McCarthy § 7:75
(interpreting TrafFix, 532 U.S. at 33–34, 121 S.Ct.
1255).
Our list is not exhaustive; there may be other
considerations. The Federal Circuit and other sister
circuits also use similar inquiries. See, e.g., GeorgiaPac. Consumer Prods. LP v. Kimberly-Clark Corp.,
647 F.3d 723, 727–28 (7th Cir. 2011); Disc Golf Ass’n,
Inc. v. Champion Discs, Inc., 158 F.3d 1002, 1006 (9th
Cir. 1998); In re Morton-Norwich Prods., Inc.,
671 F.2d 1332, 1340–41 (C.C.P.A. 1982) (predecessor
to the Federal Circuit).
With these definitions and inquiries in mind, we can
now apply them to this case.

15a
III. POCKY’S TRADE DRESS IS FUNCTIONAL
To decide whether a trade dress is functional, we
look at the usefulness of the exact feature or set of
features claimed by the trade dress. See Am.
Greetings, 807 F.2d at 1141. Ezaki Glico has two
registered Pocky trade dresses, both broad. The first
“comprises an elongated rod comprising biscuit or the
like, partially covered with chocolate.” App 10, 1448.
The second consists of the same sort of snack, along
with almonds on top of the chocolate or cream.
In a picture, Ezaki Glico’s trade dresses include all
cookies like these:

App. 292. The trade dresses are presumptively valid
because they are registered and incontestable. See 15
U.S.C. § 1115. So Lotte bears the burden of proving
that they are functional. Id. §§ 1115(a), (b)(8).
Ezaki Glico argues that none of these features is
essential to make the snack easy to eat. But that is
the wrong test. Lotte has shown that Pocky’s design is
useful and thus functional.

16a
A.

Pocky’s design makes it work better as a
snack

Every feature of Pocky’s registration relates to the
practical functions of holding, eating, sharing, or
packing the snack. Consider each stick’s uncoated
handle. Ezaki Glico’s internal documents show that it
wanted to make a snack that people could eat without
getting chocolate on their hands. Pocky was born
when Ezaki Glico found that it could coat just part of
a cookie stick, leaving people an uncoated place to
hold it. So it designed Pocky’s handle to be useful.
The same is true of Pocky’s stick shape. As Ezaki
Glico recognizes, the stick shape makes it “easy to
hold, so it c[an] be shared with others to enjoy as a
snack.” App. 595. It also lets people eat the cookie
without having to open their mouths wide. And the
thin, compact shape lets Ezaki Glico pack many sticks
in each box, enough to share with friends.
Viewed as a whole, Pocky’s trade dress is functional.
The claimed features are not arbitrary or ornamental
flourishes that serve only to identify Ezaki Glico as
the source. The design makes Pocky more useful as a
snack, and its advantages make Pocky more
appealing to consumers for reasons well beyond
reputation. See Kellogg, 305 U.S. at 120, 59 S.Ct. 109.
As Ezaki Glico’s own documents acknowledge, “Pocky
provides a functional value [Enjoy chocolate lightly].”
App. 636 (bracketed material in original).
B.

Ezaki Glico promotes Pocky’s utilitarian
advantages

There is plenty of evidence that Ezaki Glico
promotes Pocky’s “convenient design.” App. 646. Its

17a
ads tout all the useful features described above. It
advertises “the no mess handle of the Pocky stick,”
which “mak[es] it easier for multi-tasking without
getting chocolate on your hands.” App. 648, 651. It
also describes Pocky as “[p]ortable,” since “one
compact, easy-to-carry package holds plentiful
amounts of Pocky.” App. 648. “With plenty of sticks in
each package, Pocky lends itself to sharing anytime,
anywhere, and with anyone.” App. 655. These
promotions confirm that Pocky’s design is functional.
C.

There are alternative designs, but that
does not make Pocky’s design nonfunctional

Lotte could have shaped its Pepero differently.
Ezaki Glico offers nine examples of partly-chocolatecoated snacks that do not look like Pocky. That is
hardly dispositive. As we noted in Keene, even when
there are alternatives, the evidence can still show that
a product design is functional. 653 F.2d at 827. That
is true here. Every aspect of Pocky is useful. The nine
other designs do not make it less so.
D.

Ezaki Glico’s utility patent for
manufacturing method is irrelevant

a

Finally, Lotte argues that Ezaki Glico’s utility
patent for a “Stick Shaped Snack and Method for
Producing the Same” proves functionality. It does not.
As TrafFix explained, “[a] utility patent is strong
evidence that the features therein claimed are
functional.” 532 U.S. at 29, 121 S.Ct. 1255. This is
because patented items must be “useful.” 35 U.S.C.
§ 101. If a patentee relied on a product’s feature to
show that the product was patentable, that reliance is

18a
good evidence that the feature is useful. As TrafFix
put it, the question is whether the “central advance”
of the utility patent is also “the essential feature of the
trade dress” that the owners want to protect. 532 U.S.
at 30, 121 S.Ct. 1255. So Ezaki Glico’s utility patent
would be strong evidence of functionality if the
features it claimed overlapped with its trade dress.
But they do not.
The trade dress that Ezaki Glico defends is a stickshaped snack that is partly coated with chocolate or
cream. Yet those features are not the “central
advance” of its utility patent. Instead, the patent’s
innovation is a better method for making the snack’s
stick shape. The method is useful for making the
shape whether or not the shape itself is useful for
anything. Thus, the patent’s mention of the shape
says nothing about whether the shape is functional.
The District Court erroneously considered the
utility patent. But that error was immaterial. Even
setting that aside, many other factors show that
Pocky’s trade dress is functional and so not
protectable. Thus, the District Court properly granted
summary judgment for Lotte. We need not reach other
possible grounds for affirmance.
*

*

*

*

*

Though Ezaki Glico created Pocky, it cannot use
trade dress protection to keep competitors from
copying it. The Lanham Act protects features that
serve only to identify their source. It does not cover
functional (that is, useful) features. That is the
domain of patents, not trademarks. There is no real
dispute that Pocky’s design is useful, so the trade

19a
dress is not protectable. We will thus affirm. That’s
the way the cookie crumbles.

20a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
_________
EZAKI GLICO KABUSHIKI KAISHA, d/b/a EZAKI GLICO
CO., LTD., and EZAKI GLICO USA CORPORATION,
Plaintiffs,
v.
LOTTE INTERNATIONAL AMERICA CORP. and LOTTE
CONFECTIONERY CO. LTD.,
Defendants.
_________
Civil Action No. 15-5477
_________
Signed July 31, 2019
_________
Attorneys and Law Firms
Roy Henry Wepner, Natalie Sue Richer, Charles
Patrick Kennedy, Lerner, David, Littenberg,
Krumholz & Mentlik, LLP, Cranford, NJ, for
Plaintiffs.
Riley Thomas Orloff, Modernity Will & Emery LLP,
New York, NY, Sandra B. Saunders, Office of the
General Counsel, Newark, NJ, for Defendants.
_________
OPINION
_________

21a
Madeline Cox Arleo, United States District Judge
THIS MATTER comes before the Court by way of
Defendants Lotte International America Corp. (“Lotte
IA”) and Lotte Confectionary Co. Ltd.’s (“Lotte
Confectionary,” or together with Lotte IA,
“Defendants”) motion for summary judgment against
Plaintiffs Ezaki Glico Kabushiki Kaisha, d/b/a Ezaki
Glico Co., Ltd. (“Ezaki Japan”) and Ezaki Glico USA
Corporation (“Ezaki USA,” or together with Ezaki
Japan, “Plaintiffs”). ECF No. 230. Plaintiffs opposed
Defendants’ Motion and filed a partial motion for
summary judgment as to Defendants’ affirmative
defenses. ECF No. 226. For the reasons stated below,
Defendants’ Motion is GRANTED IN PART and
DENIED IN PART, and Plaintiffs’ Motion is
DENIED.
I. BACKGROUND
This matter arises out of Defendants’ alleged
infringement of Plaintiffs’ trademark rights in Pocky,
their chocolate covered biscuit sticks. See Second
Amended Complaint (“SAC”), ECF No. 102.
Specifically, Plaintiffs allege that Defendants created
a knock-off of Pocky—a virtually identical chocolate
covered biscuit stick sold as Pepero—in violation of
the Lanham Act and New Jersey state law. See id.
Though the parties raise numerous issues at
summary judgment, the threshold issue for this Court
is whether Pocky’s product configuration is protectible
as trade dress. See Sweet St. Desserts, Inc. v.
Chudleigh’s Ltd., 655 F. App’x 103, 108 (3d Cir. 2016)
(“Only ‘incidental, arbitrary, or ornamental product
features which identify the product’s source’ are
protectable as trade dress.”). Because the Pocky

22a
product configuration is functional, it is not
protectable as trade dress, and Defendants’ motion for
summary judgment is granted.
A. Factual Summary
Plaintiff Ezaki Japan is a global confectionary
company headquartered in Osaka, Japan that
manufactures and sells “a biscuit stick product
partially coated in chocolate and/or cream” under the
brand name Pocky. Plaintiffs’ Statement of Material
Facts (“Pls.’ SOMF”) ¶¶ 1, 4, ECF No 227.1.1 Ezaki
Japan began selling Pocky products in the United
States in 1978 via its wholly owned subsidiary, Ezaki
USA. Id. ¶¶ 3, 8. In 1987, Plaintiffs filed an
application to register Pocky’s product configuration
with the United States Patent and Trademark Office
(the “PTO”), and the configuration was later
registered in 1989 (the “208 Registration”). Id. ¶ 14,
20; Defendants’ Statement of Material Facts (“Defs.’
SOMF”), ¶ 1, ECF No. 228.1; see also 1987 Application
for Registration, ECF No. 248.2 at 44 (“The mark
comprises an elongated rod comprising biscuit or the
like, partially covered with chocolate.”). 2 Plaintiffs
1

The facts are taken from the parties’ statements of material
fact and their responsive statements of material fact. The facts
are undisputed unless otherwise noted. Moreover, where facts
in a party’s statement are supported by evidence in the record
and denied by the opposing party without citation to conflicting
evidence, the Court deems such facts undisputed. See Fed. R.
Civ. P. 56(e)(2)–(3); Carita v. Mon Cheri Bridals, LLC, No. 102517, 2012 WL 2401985, at *3 (D.N.J. June 25, 2012).
2

Defendants dispute that the 1987 Application for
Registration describes the Pocky product configuration in the
same way that Plaintiffs’ have defined it in this case. See Defs.’
Response to Pls.’ Supplemental SOMF ¶ 18, ECF No. 282.1. The

23a
later filed a separate registration for the Pocky
Almond Crush configuration. See Plaintiffs Response
to Defendants’ Statement of Material Facts (“Pls.’
Response”) ¶¶ 3 0–44, ECF No. 247.1.
Each
registration depicts the Pocky product configuration
as follows:

Court finds this dispute to be immaterial. Plaintiffs define the
Pocky product configuration as “an elongated, thin, straight,
cylindrical rod-shaped biscuit with more than half, but not all, of
the biscuit coated with chocolate and/or a cream or cream-like
coating that fully covers and extends from one end of the biscuit
over halfway to the other end, but terminates short of the other
end, and with the coated portion of the biscuit having a rounded
end and the uncoated portion of the biscuit having a generally
flat end.” ECF No. 229.1 at 4; see also Pls.’ Response p. 82, ¶ 2.
This configuration covers a variety of Pocky products except for
Pocky Almond Crush, which is similarly defined but also
contains “almond pieces” added “to the cream or cream-like
coating.” Id. ¶ 2. Regardless of the exact wording, there is no
dispute that the Pocky product configurations at issue are
registered as trademarks on the principal register of the PTO. In
other words, this isn’t a dispute about the scope of the registered
trade dress, which would impact the burden of proof analysis.
See, e.g., Sweet St. Desserts, Inc. v. Chudleigh’s Ltd., 69 F. Supp.
530, 542 (E.D. Pa. 2014), aff’d, 665 F. App’x 103 (3d Cir. 2016)
(identifying a dispute as to whether the registered trade dress
covered both hand-folded and machine-folded pastries).

24a
Reg.
No.

Registered
Configurati
on

Glico’s
Goods
Description
of
the
Configurati
on

1,527,
208

“The mark
comprises an
elongated rod
comprising
biscuit or the
like, partially
covered with
chocolate.”

“Chocolate
covered
candy
stick”

2,615,
119

“The mark
consists of the
configuration
of the
applicant’s
goods, which
are biscuit
sticks,
covered with
chocolate or
cream and
almonds.”

“Biscuit
stick
partially
covered
with
chocolate
or cream
in which
are mixed
crushed
pieces of
almond.”

Defs.’ SOMF ¶ 1. In 2008, Plaintiffs applied for a U.S.
utility patent entitled, “Stick-Shaped Snack and
Method for Producing Same.” Defs.’ SOMF ¶ 47; see
also ECF No. 229.29.
The utility patent was
ultimately issued in 2014. See ECF No. 229.34.
Plaintiffs also hold a Japanese utility model entitled,
“Biscuit Covered in Chocolate.” See ECF No. 229.28.

25a
Defendant Lotte Confectionary is a Korean
corporation that sells biscuit sticks under the brand
name Pepero. See Pls.’ Response ¶ 101. “Pepero
Chocolate” and “Pepero Almond” are pictured below:

Defs.’ SOMF ¶ 103. Plaintiffs allege that Defendants
“have adopted and are using the identical product
designs” for Pepero biscuit sticks. SAC ¶¶ 24, 26
(“Defendants’ product designs are identical to, and
confusingly similar to, the Ezaki Glico Marks.”). As
such, Plaintiffs initiated this lawsuit on July 10, 2015.
See ECF No. 1.
The operative complaint asserts five causes of
action: (1) trademark infringement in violation of the
Lanham Act, 15 U.S.C. § 1114; (2) unfair competition
and false designation of origin in violation of the
Lanham Act, 15 U.S.C. § 1125(a); (3) unfair
competition in violation of New Jersey common law;
(4) trademark infringement in violation of New Jersey
common law; and (5) unfair competition in violation of
N.J.S.A. § 56:4-1 and 2.
See SAC ¶¶ 29–50.
Defendants filed an answer to the operative complaint
and asserted fifteen affirmative defenses and five
counterclaims. See ECF No. 117. Defendants now
seek summary judgment on all of Plaintiffs’ claims.3
3

Defendants also ask this Court to grant summary judgment
on Count I (false advertising under the Lanham Act, 15 U.S.C.
§ 1125) and Count III (false advertising under California state
law) of its counterclaims. See Defs.’ Br. at 36, ECF No. 228.2; see

26a
ECF No. 230. Plaintiffs also seek partial summary
judgment on Defendants’ affirmative defenses of prior
use and fraud. ECF No. 226.
II. LEGAL STANDARD
Pursuant to Fed. R. Civ. P. 56(c), a motion for
summary judgment will be granted if the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with available affidavits,
show that there is no genuine dispute as to any
material fact and that the moving party is entitled to
judgment as a matter of law. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247 (1986); Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986). “[S]ummary
judgment may be granted only if there exists no
genuine issue of material fact that would permit a
reasonable jury to find for the nonmoving party.”
Miller v. Ind. Hosp., 843 F.2d 139, 143 (3d Cir. 1988).
All facts and inferences must be construed in the light
most favorable to the non-moving party. Peters v. Del.
River Port Auth., 16 F.3d 1346, 1349 (3d Cir. 1994).
III. ANALYSIS
Defendants argue that they are entitled to summary
judgment because:
(1) the Pocky Product
configuration is functional and therefore their
registered trade dress is invalid as a matter of law; (2)
Plaintiffs have abandoned the Pocky product
configuration through naked licensing; and
(3) Plaintiffs’ claims are barred by laches due to their
also ECF No. 17. However, Defendants set forth no factual basis
as to why summary judgment is warranted as to its
counterclaims.
Accordingly, the Court denies Defendants’
motion without prejudice with respect to its counterclaims.

27a
“decades-long delay” in bringing suit. See Defs.’ Br. at
10–11, ECF No. 228.2. Without sugarcoating, the
Court finds that there is no genuine issue of material
fact as to the functionality of Pocky’s product
configuration. Plaintiffs’ arguments to the contrary
are “half-baked.” Accordingly, the Court grants
summary judgment in favor of Defendants and need
not address Defendants’ latter arguments.
A. Trade Dress Infringement Under the
Lanham Act
The Lanham Act “protects from deceptive imitation
not only a business’s trademarks, but also its ‘trade
dress.’ ” Fair Wind Sailing, Inc. v. Dempster, 764 F.3d
303, 308 (3d Cir. 2014) (citing 15 U.S.C. § 1125(a)(3)).4
Trade dress “is the total image or overall appearance
of a product, [which] includes, but is not limited to,
such features as size, shape, color, or color
combinations, texture, [and] graphics.” Sweet St.
Desserts, 655 F. App’x at 108 (internal quotation
marks omitted). “In short, trade tress is the overall
look of a product or business.” Fair Wind Sailing, 764
F.3d at 308; see also Pet Gifts USA, LLC, 2018 WL
1586324, at *3 (“Although trade dress historically
4

“Because N.J.S.A. § 56.4-1 is the statutory equivalent of
Section 43(a) of the Lanham Act, courts assess New Jersey trade
dress infringement claims under the Lanham Act.” Pet Gifts
USA, LLC v. Imagine This Co., LLC, No. 14-3884 (PGS) (DEA),
2018 WL 1586324, at *3 (D.N.J. Mar. 29, 2018); see Bracco
Diagnostics, Inc. v. Amersham Health, Inc., 627 F. Supp. 2d 384,
454–55 (D.N.J. 2009) (noting that the elements for both
trademark infringement and unfair competition claims under
the Lanham Act are the same as the elements for trademark
infringement and unfair competition under New Jersey
statutory and common law).

28a
referred to the packaging and labeling of a product, it
has extended to include the product itself.”). Yet,
“only incidental, arbitrary or ornamental product
features which identify the product’s source are
protectable as trade dress.” Sweet St. Desserts, 655
F. App’x at 108. “Functional” features are not
protectable. See id.; Fair Wind Sailing, 764 F.3d at
309 (“[T]he law does not afford every combination of
visual elements exclusive legal rights.”); Am.
Greetings Corp. v. Dan-Dee Imports, Inc., 807 F.2d
1136, 1141 (3d Cir. 1986) (“When a feature or
combination of features is found to be functional, it
may be copied and the imitator may not be enjoined
from using it, even if confusion in the marketplace will
result.”).
Trade dress may be registered with the PTO. See
Sweet St. Desserts, 69 F. Supp. 3d at 541.
“Registration provides the owner with a right of action
under 15 U.S.C. § 1444 for infringement of a
registered trademark” and “creates a presumption of
non-functionality.” Id. However, “[a] registered
trademark is always subject to cancellation as
functional.” Id.; see also Sweet St. Desserts, 655 F.
App’x at 109 (“A registered trade dress is presumed to
be non-functional unless the alleged infringer
demonstrates that it is functional.”). Therefore,
“functionality is a defense to infringement of a
registered trademark, even if that mark has become
incontestable.” Id.
Whether a feature is functional is a question of fact.5
See Sweet St. Desserts, 69 F. Supp. 3d at 544. “[A]
5

While courts across the circuits “are divided over whether it
is appropriate to grant summary judgment on the question of

29a
product feature is functional . . . if it is essential to the
use or purpose of the article or if it affects the cost or
quality of the article.” TrafFix Devices, Inc. v. Mktg.
Displays, Inc., 532 U.S. 23, 32 (2001) (internal
quotation marks omitted). “When the thing claimed
as trade dress or a trademark consists of a
combination of individual design features, then it is
the functionality of the overall combination that
controls.” 1 McCarthy on Trademarks § 7:76; see also
Am. Greetings, 807 F.2d at 1143. If the product
feature or features meets this test for functionality,
“the feature is not protected and no further inquiry is
necessary.” Pet Gifts, 2018 WL 1586324, at *4; see
also Sweet St. Desserts, 655 F. App’x at 109. If,
however, the Court cannot determine functionality
under this standard, the Court “next ask[s] whether
affording [the feature] trademark protection would
nonetheless put competitors at a ‘significant nonreputation related disadvantage’ that would restrict
competition in the market.” Sweet St. Desserts,
655 F. App’x at 109 (quoting TrafFix, 532 U.S. at 33).

functionality,” Sweet St. Desserts, 69 F. Supp. 3d at 544
(collecting cases), the Third Circuit has affirmed a district court’s
grant of summary judgment on the question of functionality on
more than one occasion, see Sweet St. Desserts, Inc. v.
Chudleigh’s Ltd., 655 F. App’x 103 (3d Cir. 2016); U.S. Golf Ass’n
v. St. Andrews Sys., Data-Max, Inc., 749 F.2d 1028 (3d Cir.
1984). Generally, “courts may determine functionality on
summary judgment where there is no dispute of material fact
regarding the functionality of the product at issue and no
reasonable jury could find the product to be nonfunctional.”
Sweet St. Desserts, 69 F. Supp. 3d at 545 (“[S]ummary judgment
is inappropriate where a dispute of material fact precludes the
court from determining that the product is functional.”).

30a
B.

Plaintiffs’ Registered
Functional

Trade

Dress

Is

Because Pocky’s trade dress is registered, it is
presumed to be non-functional unless Defendants can
demonstrate otherwise. See Sweet St. Desserts,
655 F. App’x at 109. Here, Defendants have overcome
that presumption and have shown that there is no
genuine dispute of material fact that Pocky’s trade
dress is functional.
Pocky’s trade dress consists of the following
features, as articulated by Plaintiffs:
an elongated, thin, straight, cylindrical rodshaped biscuit with more than half, but not all,
of the biscuit coated with chocolate and/or
cream or cream like coating that fully covers
and extends from one end of the biscuit over
halfway to the other end, but terminates short
of the other end, and with the coated portion of
the biscuit having a rounded end and the
uncoated portion of the biscuit having a
generally flat end.6
ECF No. 229.1 at 4; see also Fair Wind Sailing, 764
F.3d at 311 (utilizing the plaintiff’s definition of its
trade dress in assessing its functionality).
Considering the functionality of the Pocky design as a
whole, the Court concludes that the evidence clearly
indicates that the design “is essential to the use or
purpose” of the cookie and is not merely an “arbitrary,
6

As noted, Plaintiffs define the product configuration for Pocky
Almond Crush in a nearly identical fashion but add that almond
pieces can be found in the cream or cream-like coating. See Pls.’
Response p. 81, ¶ 2.

31a
incidental, or ornamental” product feature.
TrafFix, 532 U.S. at 33–34.
1.

See

Designed for Ease of Consumption

First, the undisputed evidence in the record
indicates that Pocky product configuration was
designed with functionality in mind, a factor that the
Third Circuit has cited as evidence of a product
configuration’s functionality. See Sweet St. Desserts,
655 F. App’x at 109. According to Plaintiffs’ own press
release for Pocky’s 50th Anniversary, the Pocky
product configuration is at least partially based7 on an
earlier product of Plaintiffs’ called “Pretz,” which was
born out of the idea that a fully coated chocolate stick
“would get all over your hands when you held it.” ECF
No. 229.15 at 3 (“Pretz was stick-shaped and easy to
hold, so it could be shared with others to enjoy as a
snack.”). Other internal documents also highlight
functionality as playing a role in the “[b]irth of Pocky”:
How about coating a plitz with chocolate? You
can eat it watching TV, or on a date. We may
7

Although Plaintiffs dispute that Pretz was the “precursor” to
Pocky, Pls.’ Response p. 92, ¶ 25, the Court finds that there is no
genuine dispute that Pretz played a role in Pocky’s development.
Plaintiffs cite only to the Latella Declaration in support of their
contention that “Pocky is a different product entirely.” Id.
However, the cited section of the Latella Declaration merely
states that “the Pocky product configuration is unique in the U.S.
market.” Latella Decl. ¶ 22, ECF No. 254. In the absence of truly
conflicting evidence, the Court deems such facts undisputed. See
Fed. R. Civ. P. 56(e)(2)–(3). Moreover, Plaintiffs address Pretz in
their “50th Anniversary of Pocky” press release in the section on
Pocky’s development, see ECF No. 229.15 at 3, and also cite to
Pretz’s development in a corporate history document titled “The
Birth of Pocky,” see ECF No. 229.14.

32a
be able to capture the multitasking group, was
the first inspiration. . . . However, the fact that
the chocolate melts and stains the hands when
holding it remained a problem. One day, we
thought it might not be necessary to coat the
entire plitz with chocolate, and tried coating
with chocolate . . . leaving a “Place to hold” --It was the moment when the original shape of
the product called Pocky was born.
ECF No. 229.8 at 5 (internal quotation marks
omitted); see also ECF No. 229.14 at 3 (“Even after
repeated research in manufacturing, developing a
product that tasted good but that would not dirty the
hands was difficult. . . . Can it be made so that one
can eat it without having to grasp it in one’s
hands[?]”). Thus, by Plaintiffs’ own account, Pocky’s
design is critical in enabling ease of consumption for
the customer.
In addition, Pocky documents—both advertisements
and those internal to the company—explicitly link the
Pocky product configuration to functionality. See,
e.g., ECF No. 229.8 at 10 (describing Pocky as having
an “[e]longated shape that you can eat without
opening your mouth wide, one bite at a time at your
own pace” and noting it “has a place to hold”). Indeed,
Pocky’s 2011 “Product Specification Sheet” explicitly
states: “The idea of handy, convenient and fun snacks
resulted in the current design of Pocky biscuit sticks
coated with Chocolate cream except for a small
portion at one end of the stick to make it easier to
snack on.” ECF No. 229.16 at 2 (emphasis added). In
advertisements, Plaintiffs explicitly tout Pocky’s
“convenient design.” ECF No. 229.20; see also ECF
No. 229.21 (“Generously coated with high-quality

33a
chocolate except for a small portion at one end,
creating a handle, making it easier for multi-tasking
without getting chocolate on your hands.”); ECF No.
229.19 (“Small portion to make it easy to handle.”).
Even the Pocky website referred to the partial coating
of the biscuit stick as “[t]he [h]andle [i]nnovation.”
ECF No. 229.17 at 1; see also ECF No. 229.18 at 1;
Defs. SOMF ¶ 35 (citing language from Pocky’s
website: “no mess handle”; “easy-to-handle stick that
keeps chocolate off your hands”; “[t]he snack with a
handle”; “[a] simple, yet innovative idea of leaving a
portion uncoated” (internal quotation marks
omitted)); id. at ¶ 38 (“With the no mess handle of the
Pocky stick, your kids won’t have chocolate all over
their hands.”). Plaintiffs also promote that the thin
shape of the Pocky product configuration,
emphasizing that it allows many Pocky sticks to be
“packed close together” in a “compact box,” which is
“both suitable for oneself and good for sharing it.” Id.;
see also ECF No. 229.23 (“With plenty of sticks in
each box, Pocky is the perfect snack for bringing
people closer together and livening the mood.”). The
Third Circuit has found similar advertisements to
constitute “strong evidence” of functionality. See Am.
Greetings Corp., 807 F.2d at 1142 (“If the marketer of
a product advertises the utilitarian advantages of a
particular feature, this constitutes strong evidence of
its functionality.”).
Nevertheless, Plaintiffs argue that “these qualities
do not show functionality.” Pls. Response ¶ 29. To
support this line of reasoning, Plaintiffs put forth the
following argument: (1) the fundamental use and
purpose of a snack product is to be consumed; (2)
pleasant taste, texture, and ease of consumption are

34a
important for that purpose; (3) the Pocky product
configuration is not essential for taste, texture or
consumption; and therefore, (4) there is at least a
dispute as to whether the Pocky product configuration
is essential to the use or purpose of the Pocky product.
See Pls.’ Opp. at 12–13, ECF No. 247; see also Levine
Decl. ¶ 18, ECF No. 255. This argument fails on
multiple levels.
As an initial matter, Plaintiffs’ experts admit that
“ease of consumption” is an important consideration
with respect to a snack’s purpose. Levine Decl. ¶ 18
(emphasis added); see also Latella Decl. ¶ 42. It would
seem to logically follow that the Pocky product
configuration, which plainly allows for ease of
consumption, is functional. Yet, Plaintiffs’ expert
asserts that the Pocky product configuration is not
essential for easy consumption because “[m]any other
shapes are equally suited for easy consumption.”
Levine Decl. ¶ 19; see also id. ¶ 37 (“The Pocky product
configuration is no more suited for holding,
consumption, or packaging that [sic] the vast majority
of other snack products.”). The fact that other shapes
might be equally suited for easy consumption,
however, does not foreclose the conclusion that
Pocky’s configuration is itself functional.
Indeed, both the Supreme Court and the Third
Circuit have found product designs to be essential to
the use or purpose of a product, and therefore
functional, even where alternative designs might
accomplish the same result. In TrafFix Devices, Inc.
v. Marketing Displays, Inc., the Supreme Court found
that the trade dress at issue—a dual-spring designed
to keep road signs upright in adverse weather
conditions—was “essential to the use or purpose of the

35a
device” and therefore functional because it provided a
“useful mechanism to resist the force of the wind.”
532 U.S. 23, 33 (2001). The Supreme Court then
expressly rejected plaintiffs contention that the trade
dress was not functional because alternative devices
could also keep a road sign upright in windy
conditions. See id. at 33–34. The Court explained:
There is no need . . . to engage, as did the Court
of Appeals, in speculation about other design
possibilities, such as using three or four springs
which might serve the same purpose. Here, the
functionality of the spring design means that
competitors need not explore whether other
spring juxtapositions might be used. The dualspring is not an arbitrary flourish in the
configuration of [defendant’s] product; it is the
reason the device works. Other designs need
not be attempted.
Id. (internal citation omitted). Similarly, in Sweet
Street Desserts, Inc. v. Chudleigh’s Ltd., the plaintiff
argued that its six-fold pastry product configuration
was non-functional because there were an unlimited
number of other effective pastry configurations.
655 F. App’x 103 (3d Cir. 2016). However, the Third
Circuit rejected this argument, explaining that there
was “no need to consider whether five or seven folds,
let alone a different shape, could have accomplished”
the purpose of holding the pastry together because the
six-fold design was itself functional. See id. 655 F.
App’x at 110 n.9. The same analysis applies here.
Furthermore, the Third Circuit has found product
designs to be functional where the record indicates
that the design was “driven at least in part by

36a
functional considerations.” See Sweet St. Desserts,
655 F. App’x at 109; see also Disc Golf Ass’n, Inc. v.
Champion Discs, Inc., 158 F.3d 1002, 1007 (9th Cir.
1998) (“A product feature need only have some
utilitarian advantage to be considered functional.”).
In Sweet Street Desserts, the record indicated that
the six-fold pastry at issue allowed for “the best bake
. . . had the [least] leakage of juice, [and] . . . worked
the best.” 655 F. App’x at 109 (internal quotation
marks omitted). Though the defendant testified that
he chose the pastry design with six folds because it
“was the most beautiful,” the Court noted that this
testimony did “not raise a triable issue of fact as to
whether it was also particularly effective.” Id. at 110
(internal quotation marks omitted). As in Sweet
Street Desserts, the fact that Pocky’s partial chocolate
covering provides a “unique” design, see Pls.’ Opp. at
14, does not raise a triable issue of fact as to whether
the configuration, as a whole,8 is effective in enabling
consumers to eat the biscuit cookie.9 In any event, the
8

Plaintiffs emphasize that the “overall combination of features
must be assessed, not any of the features in isolation.” Pls.’ Opp.
at 15 (emphasis in original); see also Latella Decl. ¶ 49 (“[E]ven
if the uncoated portion of the Pocky product had some utility,
that would not render the overall Pocky product configuration
functional.”). The Court notes that its analysis is inclusive of all
features claimed as part of Pocky’s product configuration. In
other words, the Court clarifies that it considered whether the
thin elongated cylindrical rod partially coated in chocolate is
functional and not merely whether the partial coating has utility.
9

Similarly, the fact that consumers also eat products
completely coated in chocolate does not raise a triable issue of
fact as to whether the product configuration is functional. See
Levine Decl. ¶ 33; see also Latella Decl. ¶ 45. Plaintiffs’ experts
note that “melting is generally not a problem for chocolatecovered snack products because chocolate behaves as a solid over

37a
cylindrical cookie partially dipped in chocolate “is not
‘an arbitrary flourish’ on an otherwise complete
dessert.” Sweet St. Desserts, 655 F. App’x at 110
(quoting TrafFix, 532 U.S. at 34).
2.

Plaintiff’s Utility Patent

In addition to the above, Defendants also point to
Plaintiffs’ utility patent, “for a utility patent is strong
evidence that the features therein claimed are
functional.” TrafFix, 532 U.S. at 23. The Court agrees
that Plaintiffs’ utility patent and corresponding
application for their “Stick-Shaped Snack and Method
for Producing the Same,” further support a finding
that Plaintiffs’ registered trade dress is functional.
Plaintiffs’ utility patent and application indicate
that the Pocky product configuration enables efficient
manufacturing. According to Plaintiff’s application,
one of the problems that can occur in the production
of stick-shaped snacks is warping of the ends of the
stick, which results in “production problems such as
the baked shaped dough rotating or dropping during
the coating operation.” See ECF No. 229.29 at 4–5;
see also ECF No. 229.34 at 8. Plaintiffs’ application
then states that its “method for producing a stickmost of the temperatures that consumers regularly encounter
while eating snack products.” Levine Decl. ¶ 34; see also Latella
Decl. ¶ 45. While it may be true that a consumer can hold the
Pocky stick by the chocolate end, it does not undermine the fact
that ease of consumption is enabled by Pocky’s non-coated handle
and thin easy to hold shape. Accordingly, the Court finds that
no reasonable juror could read Plaintiffs’ expert report to refute
the evidence that Pocky’s design was “driven at least in part by
functional considerations.” See Sweet St. Desserts, 655 F. App’x
at 109.

38a
shaped snack of this embodiment” solves this problem
by enabling production without warping. ECF No.
229.29 at 12 (“[T]he stick-shaped pastries can be
reliably prevented from rotating or dropping from the
holder, thus enabling the efficient production of stickshaped snacks coated with a coating material.”); see
also id. (“[U]sing the method for producing a stickshaped snack according to this embodiment . . .
mak[es] it possible to efficiently align the stick-shaped
pastries.”); ECF No. 229.34. These “statements made
in the patent applications and in the course of
procuring the patents demonstrate the functionality
of the design.”10 TrafFix, 532 U.S. at 32.

10

Plaintiffs assert that the advantages stated in the utility
patent “do not prove functionality.” See Pls.’ Opp. at 19. The
Court finds Plaintiffs’ arguments unpersuasive. Plaintiffs
maintain that the utility patent only provides the advantages of
its “very thin biscuit sticks.” Id. However, there is no dispute
that the product identified in the utility patent bears the Pocky
trade dress. Plaintiffs admit that: (1) the utility patent
describes its Ultra Slim Pocky product, see Levine Decl. ¶ 71; and
(2) Ultra Slim Pocky bears the Pocky trade dress, see Defs.’
SOMF ¶ 3. Plaintiffs’ expert’s bald conclusion that “a patent
related to one embodiment of a product configuration, but that
distinguishes all other embodiments of the same product
configuration, cannot show functionality of the product
configuration as a whole,” Levine Decl. ¶ 73, does not create a
triable issue of material fact. In any event, the Court could only
find two statements in the patent explicitly distinguishing
between Ultra Slim Pocky and other Pocky products when
discussing the product’s advantages, see ECF No. 229.34 at 9,
10 (thinner stick-shaped snacks are “very easy to eat” and can be
coated so that they “do not easily break”), and the Court did not
rely on those as part of its analysis. In addition, Plaintiffs argue
that there are cheaper manufacturing methods that still result
in the Pocky product configuration. See Pls.’ Opp. at 19.
However, an alternative, less costly method of production does

39a
Plaintiffs argue, however, that their utility patent is
irrelevant to functionality because it only covers “new
manufacturing methods by which a biscuit stick can
be made.” Pls.’ Opp. at 18. The Third Circuit has not
addressed whether a utility patent that covers
manufacturing methods is evidence of the product’s
functionality. Other circuits have held that a utility
patent that covers manufacturing methods can be
evidence of a product’s functionality where the patent
“disclose[s] the advantage of [the product’s] design,”
Fuji Kogyo Co. v. Pac. Bay Intel, Inc., 461 F.3d 675,
679 (6th Cir. 2006), or where the trade dress claimed
is the “central advance” of the patent, see McAirlaids,
Inc. v. Kimberly-Clark Corp., 756 F.3d 307, 311–12
(4th Cir. 2014) (internal quotation marks omitted).
By either of these standards, Plaintiffs’ utility
patent is evidence of functionality.
First, as
discussed, Plaintiffs’ utility patent explicitly discloses
the advantages of Pocky’s design: manufacturing
efficiency and ease of consumption. Second, the Pocky
product is the central advance of the utility patent. In
McAirlaids, the plaintiff sought trade dress protection
for a pixel pattern on its textile-like product. See id.
at 309. The defendant pointed to plaintiff’s utility
patents, which covered “a production process and a
material,” as evidence of functionality. Id. at 312. The
Fourth Circuit noted, however, that the utility
patents did “not mention a particular embossing
pattern as a protected element.” Id. (explaining that
the pattern was not the “central advance” of any of
plaintiff’s utility patents (internal quotation marks
not undermine the utility patent’s claims relating to efficient
manufacturing.

40a
omitted)). Thus, the Fourth Circuit held that the
plaintiff’s utility patents were “not the same ‘strong
evidence’ as the patents in TrafFix.” Id. (“McAirlaid’s
patents cover a production process and a material,
while the trade dress claimed is a particular pattern
on the material that results from the process.”). Here,
unlike the utility patents in McAirlaids, Plaintiffs’
utility patent explicitly covers the “Stick-Shaped
Snack and Method for Producing the Same.” ECF
No. 229.34 (emphasis added). It is not merely a
pattern on the dough that results from the process;
rather, the stick-shape snack is the “material” covered
in the utility patent along with the manufacturing
process.
Considering all of the undisputed evidence in the
record, including Plaintiffs’ utility patent,11 the Court
finds that no reasonable juror could find Plaintiffs’
registered trade dress to be merely “arbitrary,
incidental, or ornamental.” See TrafFix, 532 U.S. at
34.

11

Defendants also point to Plaintiffs’ Japanese Utility Model
for a biscuit stick partially coated with chocolate. See Defs.’ Br.
at 31. Plaintiffs argue, however, that “Japanese utility models
are not utility patents, but rather a type of intellectual right for
which there is no analog under U.S. law.” Pls.’ Opp. at 20.
Because Plaintiffs’ do not dispute the statements in the Utility
Model (but rather the relevance of those statements), the
existence of the Utility Model does not create a genuine issue of
material fact. As such, the Court need not address whether
Plaintiffs’ Japanese Utility Model bears on functionality.

41a
3.

Affording Plaintiffs’ Trade Dress
Protection Restricts Competition

Finally, even if this Court could not determine
functionality under the first part of the functionality
test, the Pocky product configuration would still be
found functional under the second. Again, where the
Court cannot determine functionality by considering
whether the feature is essential to the use or purpose
of the product, the Court “next ask[s] whether
affording [the feature] trademark protection would
nonetheless put competitors at a ‘significant nonreputation related disadvantage’ that would restrict
competition in the market.” Sweet St. Desserts, 655
F. App’x at 109 (quoting Qualitex Co. v. Jacobson
Prods. Co., 514 U.S. 159, 169–70 (1996)). Here, there
is no question that affording Plaintiffs the trade dress
protection they seek to maintain permits Plaintiffs to
hold a monopoly over the features of the design which
are “essential to a successful” thin, partially dipped
biscuit cookie—the exact scenario that the
functionality doctrine seeks to prevent. See Shire
U.S. Inc. v. Barr Labs., Inc., 329 F.3d 348, 353 (3d Cir.
2003) (internal quotation marks omitted); see also
TrafFix, 532 U.S. at 29 (“Allowing competitors to copy
will have salutary effects in many instances.”).
Though Plaintiffs argue that disqualifying any easy
to eat snack from trade dress protection would
“require removal of countless federal trademark
registrations,” Pls.’ Opp. at 22, this argument misses
the mark. A snack can be both easy to eat and have
features that are eligible for trade dress protection,
but Plaintiffs cannot claim protection over the
“features of a design essential to a successful product

42a
of that type.” Shire U.S. Inc., 329 F.3d at 353
(internal quotation marks omitted). As the Supreme
Court has emphasized, “[t]rade dress protection must
subsist with the recognition that in many instances
there is no prohibition against copying goods and
products.” TrafFix, 532 U.S. at 29 (“[C]opying is not
always discouraged or disfavored by the laws which
preserve our competitive economy.”).
The
functionality
doctrine
only
“protects
the
manufacturer . . . from the copying of those features
that signify a product’s source (and quality).” Shire
U.S. Inc., 329 F.3d at 353 (internal quotation marks
omitted). Had Plaintiffs sought trade dress protection
for features that were solely ornamental, the result
would be different. However, permitting Plaintiffs to
maintain a trademark in the functional Pocky product
configuration “would overextend trade dress law” and
“deny competitors the ability to compete by
manufacturing a similar product incorporating [the
configuration’s] functional elements.”12 See Sweet St.
Desserts, 69 F. Supp. 3d at 549–50. Therefore,
Plaintiffs’ trademark claims must be dismissed.
III. CONCLUSION
For the reasons set forth herein, Defendants’ Motion
for Summary Judgment, ECF No. 230, is GRANTED
IN PART and DENIED IN PART, and Plaintiffs’
12

Notably, the Court’s decision does not leave Plaintiffs
without other means to protect and distinguish their product.
“[A]lthough appearance is important to the marketing of a
dessert product, the taste of that product is equally important,
and this result does not prevent [Plaintiffs] from winning market
share by producing a superior tasting dessert.” See Sweet St.
Desserts, 69 F. Supp. 3d at 550.

43a
Motion is DENIED. Plaintiff’s Motion for Partial
Summary Judgement, ECF No. 226, is therefore
denied as moot.

44a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS,
THIRD CIRCUIT
_________
No. 19-3010
_________
EZAKI GLICO KABUSHIKI KAISHA,
a Japanese Corporation d/b/a/ Ezaki Glico;
EZAKI GLICO USA CORP.,
a California Corporation,
Appellants,
v.
LOTTE INTERNATIONAL AMERICA CORP.;
LOTTE CONFECTIONARY CO. LTD.
_________
(D.N.J. No. 2-15-cv-05477)
_________
SUR PETITION FOR REHEARING
_________
Dated: January 26, 2021
_________
Present:

SMITH, Chief Judge, and McKEE,
AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
GREENAWAY,
JR.,
SHWARTZ, KRAUSE, RESTREPO,
BIBAS,
PORTER,
MATEY,
and

45a
PHIPPS, and FUENTES,
Judges
_________

*

Circuit

STEPHANOS BIBAS, Circuit Judge
The petition for rehearing filed by Appellant in the
above-captioned case having been submitted to the
judges who participated in the decision, it is hereby
ORDERED that the petition for rehearing by the
panel is GRANTED. The opinion and judgment filed
October 8, 2020, are hereby VACATED. A subsequent
opinion and judgment are herewith issued.
A majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the Court en banc is DENIED.

*

Judge Fuentes’s vote is limited to panel rehearing only.

46a
APPENDIX D
_________
STATUTORY PROVISIONS INVOLVED
_________
1.

15 U.S.C. § 1052 provides in pertinent part:

No trademark by which the goods of the applicant
may be distinguished from the goods of others shall be
refused registration on the principal register on
account of its nature unless it-*

*

*

*

*

(e) Consists of a mark which (1) when used on or in
connection with the goods of the applicant is merely
descriptive or deceptively misdescriptive of them, (2)
when used on or in connection with the goods of the
applicant is primarily geographically descriptive of
them, except as indications of regional origin may be
registrable under section 1054 of this title, (3) when
used on or in connection with the goods of the
applicant is primarily geographically deceptively
misdescriptive of them, (4) is primarily merely a
surname, or (5) comprises any matter that, as a
whole, is functional.
*
2.

*

*

*

*

15 U.S.C. § 1057 provides in pertinent part:

(a) Issuance and form
Certificates of registration of marks registered upon
the principal register shall be issued in the name of
the United States of America, under the seal of the
United States Patent and Trademark Office, and
shall be signed by the Director or have his signature

47a
placed thereon, and a record thereof shall be kept in
the United States Patent and Trademark Office. The
registration shall reproduce the mark, and state
that the mark is registered on the principal register
under this chapter, the date of the first use of the
mark, the date of the first use of the mark in
commerce, the particular goods or services for which
it is registered, the number and date of the
registration, the term thereof, the date on which the
application for registration was received in the
United States Patent and Trademark Office, and
any conditions and limitations that may be imposed
in the registration.
(b) Certificate as prima facie evidence
A certificate of registration of a mark upon the
principal register provided by this chapter shall be
prima facie evidence of the validity of the registered
mark and of the registration of the mark, of the
owner’s ownership of the mark, and of the owner’s
exclusive right to use the registered mark in
commerce on or in connection with the goods or
services specified in the certificate, subject to any
conditions or limitations stated in the certificate.
*
3.

*

*

*

*

15 U.S.C. § 1115 provides:

(a) Evidentiary value; defenses
Any registration issued under the Act of March 3,
1881, or the Act of February 20, 1905, or of a mark
registered on the principal register provided by this
chapter and owned by a party to an action shall be
admissible in evidence and shall be prima facie

48a
evidence of the validity of the registered mark and
of the registration of the mark, of the registrant’s
ownership of the mark, and of the registrant’s
exclusive right to use the registered mark in
commerce on or in connection with the goods or
services specified in the registration subject to any
conditions or limitations stated therein, but shall
not preclude another person from proving any legal
or equitable defense or defect, including those set
forth in subsection (b), which might have been
asserted if such mark had not been registered.
(b) Incontestability; defenses
To the extent that the right to use the registered
mark has become incontestable under section
1065 of this title, the registration shall be conclusive
evidence of the validity of the registered mark and
of the registration of the mark, of the registrant’s
ownership of the mark, and of the registrant’s
exclusive right to use the registered mark in
commerce. Such conclusive evidence shall relate to
the exclusive right to use the mark on or in
connection with the goods or services specified in the
affidavit filed under the provisions of section 1065 of
this title, or in the renewal application filed under
the provisions of section 1059 of this title if the
goods or services specified in the renewal are fewer
in number, subject to any conditions or limitations
in the registration or in such affidavit or renewal
application. Such conclusive evidence of the right to
use the registered mark shall be subject to proof of
infringement as defined in section 1114 of this title,

49a
and shall be subject to the following defenses or
defects:
(1) That the registration or the incontestable right
to use the mark was obtained fraudulently; or
(2) That the mark has been abandoned by the
registrant; or
(3) That the registered mark is being used by or
with the permission of the registrant or a person
in privity with the registrant, so as to misrepresent
the source of the goods or services on or in
connection with which the mark is used; or
(4) That the use of the name, term, or device
charged to be an infringement is a use, otherwise
than as a mark, of the party’s individual name in
his own business, or of the individual name of
anyone in privity with such party, or of a term or
device which is descriptive of and used fairly and
in good faith only to describe the goods or services
of such party, or their geographic origin; or
(5) That the mark whose use by a party is charged
as an infringement was adopted without
knowledge of the registrant’s prior use and has
been continuously used by such party or those in
privity with him from a date prior to (A) the date
of constructive use of the mark established
pursuant to section 1057(c) of this title, (B) the
registration of the mark under this chapter if the
application for registration is filed before the
effective date of the Trademark Law Revision Act
of 1988, or (C) publication of the registered mark
under subsection (c) of section 1062 of this
title: Provided, however, That this defense or

50a
defect shall apply only for the area in which such
continuous prior use is proved; or
(6) That the mark whose use is charged as an
infringement was registered and used prior to the
registration under this chapter or publication
under subsection (c) of section 1062 of this title of
the registered mark of the registrant, and not
abandoned: Provided, however, That this defense
or defect shall apply only for the area in which the
mark was used prior to such registration or such
publication of the registrant’s mark; or
(7) That the mark has been or is being used to
violate the antitrust laws of the United States; or
(8) That the mark is functional; or
(9) That equitable principles, including laches,
estoppel, and acquiescence, are applicable.
4.

15 U.S.C. § 1125 provides in pertinent part:

(a) Civil action
(1) Any person who, on or in connection with any
goods or services, or any container for goods, uses in
commerce any word, term, name, symbol, or device,
or any combination thereof, or any false designation
of origin, false or misleading description of fact, or
false or misleading representation of fact, which-(A) is likely to cause confusion, or to cause mistake,
or to deceive as to the affiliation, connection, or
association of such person with another person, or
as to the origin, sponsorship, or approval of his or
her goods, services, or commercial activities by
another person, or

51a
(B) in commercial advertising or promotion,
misrepresents
the
nature,
characteristics,
qualities, or geographic origin of his or her or
another person’s goods, services, or commercial
activities,
shall be liable in a civil action by any person who
believes that he or she is or is likely to be damaged
by such act.
(2) As used in this subsection, the term “any person”
includes any State, instrumentality of a State or
employee of a State or instrumentality of a State
acting in his or her official capacity. Any State, and
any such instrumentality, officer, or employee, shall
be subject to the provisions of this chapter in the
same manner and to the same extent as any
nongovernmental entity.
(3) In a civil action for trade dress infringement
under this chapter for trade dress not registered on
the principal register, the person who asserts trade
dress protection has the burden of proving that the
matter sought to be protected is not functional.
*

*

(c) Dilution
by
tarnishment
*

*

*

*

blurring;
*

*

*
dilution
*

by

52a
(4) Burden of proof
In a civil action for trade dress dilution under this
chapter for trade dress not registered on the
principal register, the person who asserts trade
dress protection has the burden of proving that-(A) the claimed trade dress, taken as a whole, is
not functional and is famous; and
(B) if the claimed trade dress includes any mark
or marks registered on the principal register, the
unregistered matter, taken as a whole, is famous
separate and apart from any fame of such
registered marks.
*

*

*

*

*

